<html>
<title> - THE INSTRUCTIONAL MATERIALS ACCESSIBILITY ACT: MAKING INSTRUCTIONAL MATERIALS AVAILABLE TO ALL STUDENTS</title>
<body><pre>[Senate Hearing 107-547]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-547

  THE INSTRUCTIONAL MATERIALS ACCESSIBILITY ACT: MAKING INSTRUCTIONAL 
                  MATERIALS AVAILABLE TO ALL STUDENTS

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2246

EXAMINING S. 2246, TO IMPROVE ACCESS TO PRINTED INSTRUCTIONAL MATERIALS 
 USED BY BLIND OR OTHER PERSONS WITH PRINT DISABILITIES IN ELEMENTARY 
                         AND SECONDARY SCHOOLS

                               __________

                             JUNE 28, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


80-580              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                         FRIDAY, JUNE 28, 2002

                                                                   Page
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................     1
Schroeder, Patricia, President and Chief Executive Officer, 
  Association of American Publishers, Washington, DC; Jessie 
  Kirchner, Guilford, CT; Marc Maurer, President, National 
  Federation of the Blind, Baltimore, MD; and Barbara McCarthy, 
  Director, Library and Resource Center, Virginia Department For 
  the Blind and Vision Impaired, and President, Association of 
  Instructional Resource Centers For the Visually Impaired, 
  Richmond, VA...................................................     6

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Patricia Schroeder...........................................    24
    Jessie Kirchner..............................................    26
    Marc Maurer..................................................    27
    Barbara N. McCarthy..........................................    29

                                 (iii)

  

 
  THE INSTRUCTIONAL MATERIALS ACCESSIBILITY ACT: MAKING INSTRUCTIONAL 
                  MATERIALS AVAILABLE TO ALL STUDENTS

                              ----------                              


                         FRIDAY, JUNE 28, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:59 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Dodd 
presiding.
    Present: Senator Dodd.

                   Opening Statement of Senator Dodd

    Senator Dodd. [presiding]. The committee will come to 
order.
    Let me thank all of our witnesses this morning for their 
presence here and all of you in the audience for attending this 
hearing today. We are very grateful to have you here.
    There is a timer up here with a little bell that will go 
off after about 6 minutes or so--I do not want you to feel 
obligated to stop at that point, but it is just an idea, so 
that we can get through the testimony and get to questions. But 
I do want all of you to know what whatever prepared testimony 
and materials you think the committee ought to have, I am going 
to make the unanimous consent request that all documentation 
and all full statements be included as a part of the permanent 
record of the committee. And again, the clock and the bell are 
not to stop anyone, but just to give you an idea so you can 
begin to wrap up your comments at that point, so we can move 
the testimony along.
    Colleagues will be coming in and out. We actually thought 
we would be in session today, and we may be in session, but the 
votes stopped last night when we completed action on the last 
bill. So this being the 4th of July break in the Senate, many 
of my colleagues have already departed Washington--I cannot 
imagine why they want to do that--to go back to their States 
and districts. And as a result, I cannot promise you that other 
members will show up this morning, but I know of many members 
who are interested in this subject matter. We have a lot of 
bipartisan support for the legislation. So I would not want 
anyone to interpret the lack of presence of other members this 
morning as any indication of lack of interest in the subject 
matter or support for what we are trying to do, but really more 
the unpredictable reality of the Senate terminating its 
business last evening and people heading off to be with their 
families and their constituents back home.
    So let me begin our hearing this morning with a few opening 
comments myself, and then I am going to turn to my former 
colleague from the House of Representatives, Pat Schroeder, who 
is today president and chief executive officers of the 
Association of American Publishers, and then I will introduce 
the other witnesses.
    The hearing we are holding this morning in the Committee on 
Health, Education, Labor, and Pensions is entitled, ``S. 2246, 
The Instructional Materials Accessibility Act: Making 
Instructional Materials Available to all Students.'' That is a 
long title for a bill, but that is what it is.
    So let me express my thanks again to all of you for joining 
us. We are here this morning to examine what I think is a very 
critical piece of legislation, S. 2246, The Instructional 
Materials Accessibility Act. We call it ``IMAA.'' Everything 
has an acronym around here, but I have suggested that we could 
call this one ``Mmm-ahh.'' It has sort of audio sound to it, 
and we could say that to people, ``Mmm-ahh.'' It will literally 
grant blind and visually-impaired students the ability to 
pursue their studies at the same time as their sighted 
classmates.
    Critical laws such as the Americans with Disabilities Act 
and the Individuals with Disabilities Education Act clearly 
establish the principle that people with disabilities have a 
right to the same public accommodations granted to those 
without disabilities. While the ADA and IDEA clearly call for 
blind and visually impaired students to have timely access to 
the same textbooks that their sighted classmates use in the 
Braille format that they need in order to read, sadly, this is 
not often the case. Far too often, blind and visually-impaired 
students must now wait months for their local school districts 
to convert their books into the Braille format that they 
require.
    However, important laws such as the ADA and IDEA do not 
specify exactly how we actually achieve equality in these 
accommodations. As I learned recently in efforts to enact 
national election reform legislation, there is a big difference 
between simply stating that all people, regardless of 
disability, are required to equal treatment and actually 
enacting policies that ensure that this commendable goal is 
truly reached.
    The Instructional Materials Accessibility Act seeks to 
bridge the gap in this area.
    At the same time that blind and visually-impaired students 
face interminable waits for their school textbooks to arrive in 
Braille, the school districts in which they live often face 
exorbitant costs to produce these conversions. As we will hear 
from some of our witnesses this morning, those blind and 
visually-impaired students who are forced to wait long 
materials for their school materials in Braille face unfair 
impediments to their ability to earn an education. Clearly, 
something needs to be done to better enable students with 
disabilities to access the instructional materials that they 
need.
    To combat the problems presented by the often difficult and 
costly Braille conversion process, 26 States have passed laws 
requiring publishers to provide a copy of textbooks in 
electronic format to aid in Braille conversion. While the 
efforts of these States are laudable, the problem lies in the 
fact that these many laws do not require the use of the same 
electronic format for Braille conversion. Alarmingly, there is 
no current uniform electronic format available nationwide to 
ease the transcription of instructional materials into Braille 
and other alternative formats.
    No one is well-served when we force blind and visually-
impaired students to unfairly wait for the opportunity to 
learn, or when we force publishers to create multiple 
electronic file formats for exactly the same school textbooks.
    The Instructional Materials Accessibility Act offers a 
significant leap forward, we believe, for both members of the 
blind community and those that produce instructional materials 
for their use.
    Any answer to the problems presented by the difficulty of 
Braille conversion must be prepared to answer two questions. 
First, how can we ensure that blind and visually-impaired 
students receive the essential school materials in the Braille 
or alternative format they require at the same time as their 
sighted classmates. And second, how can we better enable our 
Nation's schools to meet the instructional material needs of 
their blind and visually-impaired students?
    The Instructional Materials Accessibility Act seeks to 
answer both of these very important questions.
    In order to best expedite the Braille conversion process, 
the IMAA will mandate the creation of one uniform electronic 
file format that we believe will greatly ease the often 
laborious Braille translation process. The creation of a single 
format will not only ease the burden placed on publishers by 
the multiple State laws requiring different electronic files, 
but it will also ease considerably the Braille conversion 
process by allowing those who prepare instructional materials 
in alternative formats to rely on a single conversion method.
    Second, the IMAA will create the National Instructional 
Materials Access Center to serve as a repository for these 
electronic formats so that they can quickly and efficiently be 
disseminated to local school districts. With the enactment of 
IMAA, schools will simply need to reach out to the National 
Instructional Materials Access Center to obtain the school 
materials required by their students in the uniform electronic 
file provided by the publishers.
    Finally, the IMAA will provide critical funding to assist 
State and local educational agencies, effectively convert the 
newly created electronic files into Braille so that blind and 
visually-impaired students have access to the same textbooks 
their sighted classmates are using.
    I want to especially thank the Association of American 
Publishers, the National Federation of the Blind, and the 
American Foundation for the Blind, for their willingness to 
come together to help produce a very creative and far-reaching 
piece of legislation. I am particularly pleased that we will 
soon hear from the respective leaders of these two 
organizations. I have mentioned already my dear friend and 
former colleague from the House, Pat Schroeder, of the AAP, and 
Marc Maurer of the NFB.
    It is largely because of their dedication to this effort 
that we are here today with this fine bill.
    Finally, I want to thank Representative Tom Petri, my 
colleague from the House, and George Miller from California, 
with whom I was elected to Congress a quarter-century ago, who 
are the primary sponsors of this bill in the House of 
Representatives. I look forward to continuing to work with my 
House colleagues to ensure that this critically important 
legislation becomes law not some day, but this year. That is my 
determination to see that that happens.
    We often hear today the pledge that we will ``leave no 
child behind.'' To accomplish this laudable goal which we all 
share, we must provide that all children have the resources 
they require to succeed in school without regard to the 
disabilities that some students face. May I suggest that we 
also make every effort to ensure that we leave no blind child 
behind by passing The Instructional Materials Accessibility 
Act.
    It is with great pleasure that I welcome and thank our 
witnesses for appearing this morning. I look forward to their 
testimony.
    As I am introducing our witnesses, let me also tell you--
and I mentioned this to Pat Schroeder, and Marc knows this as 
well--but for those of you whom I have not met in the past, 
like any person, I was deeply affected and learned so much 
because of my wonderful parents and my remarkable sister who is 
visually-impaired, legally blind, and who is a teacher. She has 
two master's degrees and has taught for 35 years as an early 
childhood development specialist. She helped revive the 
Montessori system of teaching at The Whitney School back in 
1950's.
    I watched my sister Caroline grow up, for whom my parents 
and my mother in particular made Herculean efforts all the 
time, whether it was the New York Times books, the latest piece 
of equipment that came out in the 1930's or the 1940's or the 
1950's, so she could use microscopes and run her books 
underneath them. But it was expensive, and my parents had some 
resources and they could afford to do it, but it was always a 
battle to make sure that she had the ability to stay current 
with her school work.
    Having watched my sister grow up with the struggles of 
someone who is visually-impaired or legally blind, and knowing 
how well she did had it not been for my parents who put the 
effort in, she might not have been able to achieve the success 
she did. But because she did, she has made a difference in the 
lives of thousands of people as a great teacher in the State of 
Connecticut.
    So I was determined when I came to Congress in 1974, 
beginning with the acts that we passed in P.L. 490, going back 
to those days--I see some gray hair in the audience, and some 
will remember those days more than 25 years ago--and then, 
working with Tom Harkin and others over the years, I have been 
determined to see to it that other Caroline Dodds growing up on 
my watch would never have to go through what she went through. 
So am not going to put a name on this act, but if I could, I 
would name it for my sister.
    I thank all of you for being here, and now we will turn to 
our witnesses.
    This morning, we are going to hear from a panel of four 
witnesses. First, we will hear from my former colleague, Pat 
Schroeder, who is now president and chief executive officer of 
the Association of American Publishers. She served with me in 
Congress, representing the State of Colorado and the Denver 
area for 25 years. During her time in Congress, Ms. Schroeder 
was chair of the House Select Committee on Children, Youth, and 
Families. I have often said I love to talk about the bill that 
we passed dealing with the rights of parents to be with their 
children and their loved ones, which was so critically 
important to so many people, the unpaid Family and Medical 
Leave Act. A lot of people have taken credit for it, the 
present presiding officer of this committee being one of them, 
and I offered the bill in the Senate. But the first person who 
introduced this bill, who never got the credit she deserved, 
was a woman by the name of Pat Schroeder in the House.
    I will never forget the day the bill was signed by 
President Clinton, the very first bill that he signed into law, 
I sat there at the table and unbelievably looked out, and we 
had four or five people from the Senate and others, and there, 
out in the audience, was Pat Schroeder, not standing with the 
President to be part of the signing ceremony.
    So I want to say to everyone over and over again that she 
deserves as much credit, in fact more than anyone else, for the 
passage of that law. So, you did a lot of great things when you 
were in the House, but I am particularly grateful for your work 
on that bill, which I take great pride in having authored here 
in the Senate.
    I am very delighted to have Pat with us today and grateful 
for all the work that she has done and that the AAP is 
continuing to do in this particular effort.
    Our second witness is a special witness whom I have asked 
to come down, and that is Jessie Kirchner from Guilford, CT. 
Jessie is entering her senior year at Guilford High School, is 
a member of the Connecticut Chapter of the National Federation 
of the Blind, an organization that I know well. As I mentioned, 
my sister Caroline is also a member. I had the distinct 
pleasure to meet Jessie at a press conference that we held in 
April when I said, ``Jessie, why don't you come up and say a 
few words?'' And Jessie not only came up and said a few words, 
but she bowled everyone over with the extemporaneous comments 
that she made that day.
    So I am pleased that you could come back down to be a 
formal witness now in front of the U.S. Senate, and I thank you 
for your work.
    Next, we will hear from Dr. Marc Maurer, whom I have 
introduced. Marc has been president of the National Federation 
of the Blind since 1986, and has been a vocal advocate for the 
blind since high school, when he discovered that blindness need 
not be an incapacitating disability. He has used his talents 
and skills as a lawyer to advance the interests of blind 
individuals.
    I thank you once again, Marc, for your presence here today.
    Our final witness is Barbara McCarthy, from Richmond, VA. 
Barbara is director of the Library and Resource Center of the 
Virginia Department for the Blind and Vision Impaired. She is 
also president of the Association of Instructional Resource 
Centers for the Visually-Impaired. In these roles, Barbara has 
worked to provide textbooks to the visually-impaired and blind 
students from Virginia.
    We thank you for all of your wonderful work, Barbara, and 
are pleased to have you with us.
    With those introductions, Pat Schroeder, we will begin with 
you, and we thank you for joining us this morning.

STATEMENTS OF PATRICIA SCHROEDER, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, ASSOCIATION OF AMERICAN PUBLISHERS, WASHINGTON, DC; 
JESSIE KIRCHNER, GUILFORD, CT; MARC MAURER, PRESIDENT, NATIONAL 
 FEDERATION OF THE BLIND, BALTIMORE, MD; AND BARBARA McCARTHY, 
DIRECTOR, LIBRARY AND RESOURCE CENTER, VIRGINIA DEPARTMENT FOR 
 THE BLIND AND VISION IMPAIRED, AND PRESIDENT, ASSOCIATION OF 
   INSTRUCTIONAL RESOURCE CENTERS FOR THE VISUALLY IMPAIRED, 
                          RICHMOND, VA

    Ms. Schroeder. Thank you, Mr. Chairman. Thank you for your 
very, very nice words.
    I am basically going to put my statement in the record 
because your opening statement says that you know as much about 
this bill as any of us in this room, which is so characteristic 
of you, and we cannot thank you enough for all that you have 
done.
    I am here basically to say that the publishers whole-
heartedly support this, and I really want to salute one 
publisher who is here, Pearce McNulty from Houghton-Mifflin. He 
is here, and he has been leading many of them to keep everybody 
on line, and they are really very enthusiastic and thrilled 
that this has come this far.
    As you talked about this, your record has always been one 
where you have done what is right, whether family and medical 
leave, or this Instructional Materials Accessibility Act. There 
is not a lot of money and power in this, but this is what 
really, really needs to be done, and I salute you for saying 
that you are going to do everything you can to get the House to 
move. That is going to be a challenge, but let us get it done 
this year, because even when you get it done, it is going to 
take a while to get it up and moving.
    The reason why publishers are so supportive of this is, as 
you described, the total chaos that is out there. It is chaotic 
and costly, and the bad thing is that, for all the chaos and 
cost, at the end, a lot of young students still do not get the 
materials on time.
    So this is a great way to break through that clutter. While 
we have 26 different Sates doing something, and the others all 
have random approaches, this is a real focus. This makes sense, 
and this is how we really can make sure that no child is left 
behind.
    Who could not be for the repository? It will also allow 
smaller publishers to participate, because it is terribly 
costly to deal with this whole random system. This would allow 
independent and smaller publishers to consider getting into the 
school materials business.
    So what we want to say is that we are here, and we are 
ready to do anything we can to help you move this. We thank you 
so much for your dedication and the fact that you are having a 
Friday hearing, which is historic in the Senate, and continuing 
to work----
    Senator Dodd. You know, you just cannot resist these House 
Members. You invite them over, and they really want to poke us 
in the eye at least once. [Laughter.]
    Ms. Schroeder. We always lose our manners, don't we? 
[Laugher.]
    But this really shows your commitment, and I want to thank 
you, and I will pass the microphone on, because we really want 
to hear from the other witnesses. Please call on us 24/7. We 
are ready to do whatever it takes to get this bill out.
    Thanks again.
    Senator Dodd. Thank you, Pat, so much. I will have some 
questions for you in a few minutes about some things we need to 
look at, but I am very grateful to you for all your terrific 
work on this in the AAP.
    And Pearce, we thank you for being here this morning 
representing the publishers and one of the companies that will 
be involved in this.
    [The prepared statement of Ms. Schroeder may be found in 
additional material.]
    Senator Dodd. Jessie, we thank you. I have introduced you 
already. You will have to pull the microphone close. My 
colleague from South Carolina, Senator Thurmond, who is now 
over 100 years old, is quite a fellow, and he calls that ``the 
talking machine.'' So if you could bring that ``talking 
machine'' a little closer so we can hear you.
    Thank you, Jessie. We are anxious to hear your words.
    Ms. Kirchner. Mr. Chairman and other members of the 
committee, good morning. My name is Jessie Kirchner, and I will 
be entering my senior year this fall at Guilford High School in 
Guilford, CT.
    I am involved in several school clubs and extracurricular 
activities, including the national and French honor societies, 
Safe Rides, and select choral and instrumental groups. I plan 
to major in English and philosophy in college, with the goal of 
eventually attending law school.
    I am a Braille reader, and I am speaking in support of S. 
2246, The Instructional Materials Accessibility Act: Making 
Instructional Materials Available to All Students.
    First, let me thank you for the opportunity and the 
privilege to speak to you today about such important 
legislation. In addition, I wish to especially thank my 
Senator, Senator Dodd, for introducing this bill and for his 
commitment to moving it forward. Hopefully, I can give you an 
idea of how the current system works from a student's 
perspective so you can understand what a positive impact this 
bill will have on visually-impaired students across the 
country.
    Braille books required for the school year beginning in 
September must be ordered by March of the previous school year. 
Thus, planning begins in February, when we must determine which 
courses we expect to take. Next, a list of required textbooks 
is requested from next year's teachers. We determine which 
books are not already available in Braille or on tape and order 
them in Braille. A single Braille textbook may consists of over 
30 volumes, of which this is the typical size--so 30 of those 
could be a typical mathematics textbook, for instance.
    Senator Dodd. Would you hold that up again, Jessie? You say 
30 of those would be one math textbook.
    Ms. Kirchner. Yes.
    Senator Dodd. So that will give people an idea out there--
and by the way, I want to thank CSPAN for being here today to 
cover this so that a broader audience can hear about it--but 30 
of those for basically one math textbook, just to give people 
an idea.
    Ms. Kirchner. Yes.
    Senator Dodd. Please go ahead.
    Ms. Kirchner. They may take months to produce. Ordering 
books in March should allow volumes to start arriving by the 
beginning of the next school year.
    The process sounds simple, but in reality it is really 
complex. First, course descriptions for the next school year 
are not normally available until after March, and course 
scheduling is done even later. We must start the process ahead 
of everyone else and may find out after ordering our books that 
we have schedule conflicts. For instance, this year, I will be 
unable to take wind ensemble because another course I would 
like to take, Western civilization, is being offered during the 
same period. Adding physics in place of wind ensemble may mean 
not getting a physics textbook in time.
    Sometimes the schedule conflict requires completing a 
course during the first semester in a double period rather than 
over the entire year in a single period. This actually happened 
to me freshman year. My geometry book was in Braille, and 
volumes were sent as they were completed, but they continually 
arrived too late because the typist could not keep up with the 
class pace. So I would get Volume 3 when I was supposed to be 
getting Volume 5, for instance, and had no book for about 4 
months.
    Senator Dodd. But geometry is easy anyway, isn't it?
    Ms. Kirchner. Oh, yes, definitely. [Laughter.] Better even 
than algebra.
    Senator Dodd. So why do you need a textbook, Jessie?
    Ms. Kirchner. Yes, definitely. [Laughter.] Luckily, it did 
not happen this year in pre-calculus.
    Senator Dodd. That is even easier. [Laughter.]
    Ms. Kirchner. Oh, yes.
    But some courses are available to students only if they 
qualify for them on the basis of a sufficiently high grade in 
the prerequisite course. For example, I took pre-calculus this 
past year and needed minimum of a B average to take calculus 
next year. However, I could not wait for my final grade before 
having to order my calculus book in March at a cost of $2,000. 
If I do not take calculus, my school will have spent $2,000 for 
nothing, and I still will have no math textbook to use in 
September. But luckily, I am taking calculus, and the book is 
all set, so it was a good thing.
    Senator Dodd. Good.
    Ms. Kirchner. Also, town budgets are passed, at least in 
our town, in June. If requests for new textbooks are approved, 
the books are purchased over the summer and arrive by 
September--all except for the Braille versions. I know someone 
who personally experienced this. By September, he had a math 
book in Braille, but it was the wrong one. The new one had been 
quickly ordered but could not be produced in time, and the 
volumes kept arriving after the material had already been 
covered, so the student's grades and self-esteem suffered, and 
sadly, he thought that he was the problem because no one else 
in the class was complaining.
    In addition, some Braille textbooks are not available in 
time because there is only a limited number of competent 
Braille typists in the State. They must know the various 
Braille codes. For example, math is typed in what is called 
Nemeth code, standard English in literal code, and science text 
in scientific code. If a good typist gets an order for three 
books at once, he or she might not be able to finish them all 
on schedule.
    Moreover, books on tape are wonderful, but in general, 
textbooks in Braille are preferable. Textbooks are ordered on 
tape if they are available when a Braille copy is not. However, 
turning to the same page the teacher is on in class is 
impractical with tapes. And going back and looking up quotes 
and other facts is very difficult.
    In addition, tapes can also be defective, as I painfully 
learned this past year. By the time I discovered that two 
cassettes of my history book were blank, it was too late to 
order new ones, so I had to take the quiz basically on my 
notes. And the homework had to be done, so each night, I had to 
scan pages from a printed copy into my computer before I could 
start my homework. My sighted peers probably had much of their 
assignment done in the time it took me to scan the pages.
    Finally, without a textbook in class, we often have to rely 
on friends, parents, and paraprofessionals to read materials to 
us when we are perfectly capable of reading them ourselves. We 
do not like to take our friends' time, because they have their 
own work to do.
    Passing this bill will solve the problems I have discussed 
and make Braille textbooks available at the same time as 
printed ones are available for my sighted peers. Furthermore, 
the fact that books will be available electronically will allow 
the option of downloading them into a Braille word processor or 
laptop computer.
    Although Braille hard copies of textbooks are preferable to 
tapes, they are bulky and difficult to carry. The new 
electronic format will give students the choice of obtaining 
their Braille textbook in a hard copy or reading it in Braille 
from a Braille word processor. The latter facilitates 
portability and allows us to access information more quickly 
and easily.
    Overall, our time and attention will be more appropriately 
focused on learning rather than on getting the information.
    Again, thank you, Senator Dodd, for your leadership with 
this critical legislation and for calling this hearing. Having 
a textbook in class like everyone else should be a right, not a 
privilege. To move us closer to this point, passage of The 
Instructional Materials Accessibility Act is essential.
    Senator Dodd. Jessie, you are terrific.
    Do the rest of you want to testify now, or do you want to 
just leave it there? [Laughter.] Aren't you glad to be 
following that, Marc? We are happy that you are here, Marc.
    Thank you, Jessie, very much. That was eloquent as always, 
and I will hire you right now. You can be my lawyer. I am very 
confident that you will be a great asset to whatever profession 
you choose to go into.
    Thank you for your eloquence today and your hard work. And 
thanks to your parents, too, for the work they do.
    [The prepared statement of Ms. Kirchner may be found in 
additional material.]
    Senator Dodd. Marc?
    Ms. McCarthy. Thank you very much, Senator Dodd.
    I am Marc Maurer, president of the National Federation of 
the Blind, and I would like to say a few words of my statement 
which has already been submitted.
    Members of the National Federation of the Blind have first-
hand experience with the need for the legislation before you 
today. All of our leaders and the vast majority of our members 
are blind. In my own case, I read Braille. What would I have 
done in school if my mother had not put other things aside and 
taken the time to learn Braille herself so that she could 
transcribe my books into Braille by hand for me?
    Looking back on it, I was unusually fortunate. When she 
could not produce a book for me in Braille, she would read it 
to me. This was my experience, but it is not the present-day 
experience of most blind students. The demands on families are 
just too great, and training programs to teach families are 
nonexistent.
    On January 8, 2002, President Bush signed the latest 
amendments to the Elementary and Secondary Education Act, 
declaring ``No child left behind'' as the preeminent national 
policy in education. This was a commitment of our generation 
made as a promise to all children in America. To keep this 
promise for blind children, we need a new Federal law on 
instructional materials production.
    Books in Braille, speech, or large print are often provided 
to blind students on a piecemeal basis and sometimes not 
provided at all. I think the best demonstration is the previous 
witness here. This happens because there is no uniform and 
rationally organized system to have print editions of standard 
textbooks created in formats other than standard print. In 
former times, when most blind children attended State-run 
schools, the schools could get together and agree on the books 
that all of them would use, and the American Printing House for 
the Blind would produce the books. Now, blind children study in 
classrooms alongside sighted children. We expect them to learn 
and to compete on equal terms. This means having the same 
tools, the same textbooks, available at the same time. This is 
an obligation of our educational system that must be kept, and 
The Instructional Materials Accessibility Act is designed to do 
just that.
    The key to making this legislation work is the publishers' 
agreement to produce an electronic version of each printed 
textbook sold to any school district in America. This 
electronic text will be deposited by the publishers in a 
national distribution center where all school districts in the 
country can obtain it.
    This is a simple approach, but Federal legislation is 
needed to put it into effect. That is where we come to you for 
help.
    The National Federation of the Blind, the Association of 
American Publishers, representatives of States, textbooks 
producers and others have reached consensus on the approach 
needed and recommended in S. 2246. This bill includes 
responsibilities of publishers of textbooks as well as for 
educational programs at all levels, Federal, State and local. 
Rather than placing all of the responsibility on States and 
local schools as is now the case, along with the publishers, 
this legislation creates a system that is simple to operate, 
easy to understand, and effective for the students.
    Schools will still obtain and produce books in Braille when 
they are needed for each blind student, but an infrastructure 
will at long last be in place to help them do it.
    The Association of American Publishers and its president, 
Pat Schroeder, deserve high praise for their constructive work 
on behalf of the industry affected by this legislation. Also, I 
want to thank you, Senator Dodd, for your leadership in 
sponsoring S. 2246 and for moving the bill forward to 
consideration. ``No child left behind'' means no blind child, 
too, as you have said.
    Schools and educators in every State need your help in 
keeping this commitment. Members of the affected industry are 
ready to step up to the plate to do their share. Now, at last, 
with support provided by the Federal Government, we can see a 
day when each blind child will actually have the chance for an 
equal educational opportunity. That is what this bill is all 
about.
    The National Federation of the Blind urges you to enact it 
into law this year, and I thank you very much for the 
opportunity to participate in the hearing.
    Senator Dodd. Marc, thank you so much, and we thank your 
mother as well. She sounds like a remarkable woman.
    Mr. Maurer. You would like her, Senator.
    Senator Dodd. Yes, I think I would. I like her already, 
just having heard what a dedicated parent she was.
    [The prepared statement of Mr. Maurer may be found in 
additional material.]
    Senator Dodd. Barbara, we thank you for joining us and we 
are anxious to receive your testimony.
    Ms. McCarthy. Thank you very much, Mr. Chairman, and thank 
you for inviting me here today.
    I am Barbara McCarthy from Richmond, VA. I work with the 
Department for the Blind and Vision Impaired, and I run an 
instructional materials and resource center that produces 
Braille and large-print textbooks for blind and visually-
impaired students.
    What I am about to tell you and the purpose of this 
legislation have not been a Senate priority. There are great 
economic and international issues before you, and we all 
understand and recognize that.
    What I am going to tell you about, however, is the priority 
within the community of blind and visually-impaired people and 
the professionals who work with them.
    Technology has opened many opportunities to provide all of 
us with access to information. This legislation is a matter of 
allowing technology to provide access to information. 
Technology offers the potential to provide the materials that 
all students, including those who are blind and visually-
impaired, must have in order to receive an equal quality 
education. Ultimately, technology will allow for lower 
materials cost, faster delivery, and better student 
performance.
    If I could have called this hearing, I would have invited 
you all to Richmond to see what we do at the Library and 
Resource Center this time of year. In fact, today, if you were 
to visit any one of the materials centers that are located in 
45 States in the country, you would see similar activity. And I 
just want to explain the 26 Braille bills--those are 26 States 
that have passed Braille bills, but there are 45 States that do 
what I do at an instructional materials center.
    At the Library and Resource Center in Richmond, we provide 
Braille and large-print textbooks to all Virginia students who 
are blind and visually-impaired, and that is about 550 students 
who receive the textbooks. We serve quite a few more than 
that--we serve about 1,300 students--but many of them do not 
receive textbooks for various reasons; some of them are 
infants, some of them are multiply handicapped and are not 
reading.
    We loan textbooks for the school year, and at the end of 
every academic year, the books are returned and made available 
to be loaned to another student for the next year. So it is 
more of a centralized depository. We loan them out, they come 
back, they go back out the next year. And there are many States 
that operate a similar kind of activity.
    The other thing that would be interesting for you to know 
is that the Association of Instructional Resource Centers 
actually has a sort of standing agreement which we have had for 
about 20 years that we share textbooks. During the school year 
and this time of year, when we are gearing up for the next 
school year, if someone from another State needs a book that I 
have, and I do not need it, I would give it to them or loan it 
to them for the next school year.
    This time of year, we are busy producing Braille and large-
print textbooks for the next school year. Most books have 
already been ordered and will likely be ready when school 
begins. However, last week, I received orders for five books to 
be produced in Braille--two algebra, a calculus book, a 
geometry book, and this biology book. And if I could--I do not 
know if anybody can come and get it--but it might be 
interesting for you to be looking at this book as I am talking 
about it, because it is quite a lengthy book.
    June is really very late in the process to receive orders 
for Braille books--that is not going into the record, by the 
way; I do need to take it home with me--but June is really 
considered very late to be ordering these Braille books.
    I was able to find people to transcribe the math books that 
I just cited, but the biology book that you are looking at 
right now, I have not been able to find someone for. The other 
four math books will likely not be ready when school starts. If 
I am lucky, I will have a couple of volumes, but that is not 
even a guarantee that I will.
    This biology book, I am still looking for someone to do it, 
and by the way, if there is anybody in the audience who wants 
to transcribe it, see me after the hearing.
    Regardless of whether I receive the book early or late, 
there is a student who needs this book in Braille and will 
suffer without it when school starts.
    Orders for textbooks for the next school year should be 
received, I say, no later than April 30, but I really like 
Jessie's March date much better, and I think I am going to go 
to that one. The point of this is that it really takes a long 
time to get the process going and allow us time to find people 
to transcribe the books and produce them. Any order received 
after this date is really at risk of not being ready when 
school begins.
    When the order is received, we search our own database to 
see if we have either produced the book ourselves or have 
purchased it from another transcribing agency in the past. If 
we have not produced the book, and it is an order for a large-
print book, we ask for a copy of the book from the school 
system and we enlarge it using copy machines. And I might point 
out that that is rather poor quality. We can make a good copy 
of the text itself, but when you start talking about insets and 
inserts and graphs and charts in different colors--if any of 
you have seen a textbook recently, they are all about visual 
effect; we are the TV generation, and they are meant to really 
``glow'' at the kids, so they are more about visual display 
than anything else. Those things are very difficult to make a 
nice copy of.
    If the order is for the Braille textbook, we search the 
American Printing House for the Blind's national Louis database 
for the title. If it is not available from another source 
somewhere else in the country, we will transcribe the book 
using our staff, or ask one of our volunteers to transcribe the 
book, or pay someone to transcribe the book.
    In point of fact, the volunteerism is really dropping off--
I am sure you all are aware of that--and our volunteer corps is 
much smaller than it was 10 or 15 years ago.
    The biology text I have with me today will take 
approximately 9 months to transcribe. Most transcribers work on 
several books at one time and regularly provide volumes of 
Braille to stay ahead of the class syllabus, and that is pretty 
much what Jessie was referring to. they do take several 
projects on at one time. They have to do that whether they are 
getting paid for it and this is their livelihood, or there are 
just so many books and not enough transcribes, but they work on 
several, often three or four, at a time.
    A book this size, which is actually 1,183 pages, would 
translate into 4,732 pages in Braille. That is where you get 
those 30 volumes. The average cost to produce this book into 
Braille if I were to pay someone to do it or do it with my own 
staff time would be $16,562. That would be attributed to the 
fact that this would be a manual transcription; we would be 
getting publisher files; somebody would be keying the text into 
the computer--we do use computers, and there is Braille 
translation software; we are not back in the old days where we 
are grinding it out on a Braille-writer, so there are some 
advantage to using the computer, but it is still a very slow 
process.
    In my State, we purchase probably 250 books from outside 
sources, we transcribe 100 titles a year in Braille--it is a 
lot of Braille--we purchase 250 copies and then probably engage 
25 outside transcribing agencies and pay them to do books for 
me.
    The good thing is that we reuse those books; it is not an 
investment that you have made--or, hopefully, you end up 
reusing the book.
    This national practice for producing books in alternative 
format that I have described is a process that requires 
everyone in the chain to do his or her part on time and 
accurately. One break in the chain, and the books will be late 
for the beginning of school.
    The process for providing textbooks in adapted format is 
dependent upon many factors which determine if the students 
receive books on time. Jessie alluded to many of those factors, 
but let me give you a few more.
    If the students are assigned subject areas and classes in 
time, prior to May--and again, Jessie talked about that--if the 
school has identified next year's textbooks; if the course is a 
one-semester course, and it is going to be a first semester 
one-semester course, that throws everything totally out of 
whack--we get the order in April, but the whole books needs to 
be done by September; if the school can provide copies of the 
textbooks for us to use in production--that is a big thing; if 
they have just adopted those books at their budget time in 
June, they probably do not even have a book to give us, so that 
is always a big challenge and issue; if the book orders are 
placed by April 30; if there are transcribers available to 
produce the book in Braille; if the student's schedule does not 
change when school begins; if a student does not move 
unexpectedly into the school system--somebody may show up on 
the first day of school that you were not counting on, a blind 
student, no book--what do you do? If the books is used in the 
front-to-back order--and what I mean by that is start with 
Chapter 1 and go through the book, 1, 2, 3, 4, 5--many teachers 
do not teach that way anymore. They jump around in the book. So 
we will start transcribing at Chapter 1 unless somebody tells 
us otherwise. It could be, depending on the subject, that the 
teacher is going to start in the middle of the book. If we have 
not transcribed the middle of the book, that child is pretty 
much out of luck. And then, last, if the school system is able 
to provide a syllabus for us.
    The process that is promoted within the scope of this 
legislation is very different from the one that we currently 
use. It requires far less time, costs less, and will ensure 
that blind students will receive their textbooks at the same 
time as other students.
    As soon as an order is received for the book, we would 
search our database. If we do not have it, we would check the 
national database that this legislation creates to see if the 
file is listed as available. If it is, we will download the 
file, print the book in large print, in what will be excellent-
quality text, or translate the data using Braille software and 
emboss the book into Braille, or provide the book in the 
student's other chosen format, which could be electronic for 
use with the computer, or audio-digital, or for use with an 
electronic Braille display or a note-taker, as Jessie alluded 
to.
    If the book is not available, we will request the 
electronic file from the publisher to be deposited in the 
center. Once deposited, we will download the file. The cost for 
my resource center to produce this biology book that you are 
looking at right now in Braille using this proposed process 
would be approximately $785--that is it, compared to $16,000--
and could easily be produced within a week, not 9 months.
    If this legislation is passed, 3 years from now, I will not 
struggle to find a means by which this biology textbook is put 
into Braille--and that means if it is passed this year--we 
still have a 3-year get-up, set-up, and be ready for this.
    When the student in my State moves to Fairfax from Newport 
News in the middle of the school year, or when the student is 
doing so well that she changes classes first semester into an 
honors class, the books can be available.
    On behalf of the members of the Association of 
Instructional Resource Centers, representing every State in the 
country, we believe that this legislation offers the single 
greatest contribution to blind and visually-impaired children's 
futures. It will ensure that they really do receive the same 
education as their sighted peers.
    Access to information opens doors. This legislation is a 
door opener. Children's lives will be changed, and we will all 
be saying: ``Mmm-ahh.''
    [The prepared statement of Ms. McCarthy may be found in 
additional material.]
    Senator Dodd. I like that. That is great testimony, 
Barbara, and very, very helpful.
    I probably should have in my opening comments--because 
there is always an assumption that everybody knows everything 
about the background and data on these things--I just want to 
share with the committee--and these numbers, obviously, people 
sometimes argue with some of them--but when you get into the 
areas where you start talking about visually blind, visually 
impaired, and blind, the numbers become a bit like an accordion 
depending on how you look at all of this.
    But I just want to share with the audience what we are 
talking about here. There are more than one million people in 
this country who are blind--about 1.1 million is the number 
that I have. About 75,000 people become blind each year one way 
or another in this country. Every 7 minutes, someone in America 
becomes blind or visually-impaired. There are approximately 5.5 
million elderly individuals who are visually-impaired, legally 
blind, or blind. There are approximately 95,000 visually-
impaired or blind students in the United States. Is that number 
right, Barbara? Does that number hold up with you?
    Ms. McCarthy. Yes.
    Senator Dodd. Of that number--and this is where I want to 
raise it, and Marc, if you would, I want you to talk a little 
bit about this--of those 95,000 students--and obviously, this 
is not just about students here, and I presume that student 
number is just elementary and secondary, and does not include 
higher education and continuing----
    Ms. McCarthy. That is elementary and secondary.
    Senator Dodd. So the numbers move up--because obviously, in 
the 21st century economy, the notion of being a student for 12 
years or 16 years is an antiquated student. You are going to 
have to be a student all your life, or at least all the 
productive years of your life, if you are going to maintain an 
active participation in the economy of the country.
    Approximately 32 percent of legally blind working-age 
Americans are employed in this country, which tells you that we 
obviously have a problem here between education and employment.
    Now--and this is the thing I want to drive home--of the 
95,000 elementary and secondary age students who are visually-
impaired or blind, about 5,500 use Braille--that is the best 
number I have.
    This bill is going to cost about $1 million a year. You 
cannot find a bill that talks about $1 million around here. 
These numbers do not show up, I promise you. We have spent that 
already this morning on lights around here, I presume. 
Actually, it is a little more, because there is some start-up 
money in this bill. So there is about $5 million that is 
available to help the States get going. That money disappears 
after a few years, and then it is $1 million. So if you want to 
use the population of 1.1 million, it is about $1 per person in 
order to make this difference that we are talking about.
    The issue that is raised--one thing I like about our bill 
is that we have great flexibility in the bill; Braille is 
obviously a part of it, but there are other means that can be 
used--I am wondering why we are not doing a better job of 
promoting Braille. I had an intern from New Mexico who was 
blind--or, she was actually visually-impaired; it was a 
degenerative loss, so it was a growing problem--and she wanted 
to go to law school and had not learned Braille, so she had to 
go back and learn Braille, because it would be hard to go 
through law school under today's circumstances--maybe with 
later technology you could, or with readers and so forth, but 
she felt she needed that--she had to go back, and it was far 
more difficult for her at age 23 or 24 to go back and acquire 
that skill.
    Jessie, how old were you when you learned Braille?
    Ms. Kirchner. About 5.
    Senator Dodd. And obviously, the difference learning it at 
that age as opposed to later--it is much harder.
    Marc, as part of the difficulty that more people have not--
and I know this is a debate within the community, too, and a 
longstanding debate, about use and nonuse of Braille--is part 
of the difficulty for the very reason that we are here, the 
fact that there have not been the reading materials in Braille, 
that therefore, the feeling of the necessity to have a Braille 
skill is not there? Do you get the point I am trying to make? I 
am not doing it very well. Explain to me why we do not have a 
greater percentage of the population that reads Braille.
    Mr. Maurer. Thank you very much, Senator.
    Although there was a considerable debate about the 
importance of Braille, I think there is a greater consensus 
about that today than there has ever been in the field of 
blindness. I believe there is virtually unanimous opinion that 
Braille is important.
    Now, there are not enough teachers, there are not enough 
books. If you cannot get the books, the teachers do not have 
any tools to use to teach, and if the teachers do not have 
students who have the books, they lose the capacity for 
Braille.
    I read Braille every day. If I did not read it for 2 or 3 
or 4 years, would I know it? The answer is likely that I would 
know less of it. But I read it every day, so I have no problem 
keeping up with it.
    If the teacher cannot get the books, and if the student 
therefore does not use the books, the teacher's skill in 
Braille, which usually for sighted teachers is taught in 
college, those teachers are going to use the capacity for it.
    So we need this material because we need it for the 
teachers as well as for the students. A little over 10 percent 
of students read Braille, but the statistics--and there is an 
argument about whose statistics you use, as you pointed out, 
Senator--but the statistics indicate that for those who have a 
capacity in Braille, 85 to 90 percent of those people will have 
good jobs.
    Senator Dodd. Yes, that was my question in a sense. For law 
school, I presume, or English literature, and so forth, I can 
understand where a reader or some audio equipment would be 
fine. I cannot imagine in a math class how you could possibly 
get along, or a science class where you need to be looking at 
graphs and charts and so forth--how you could explain orally to 
someone a graph or a chart.
    Jessie, am I making any sense with this? Share with us your 
thoughts--if you have Braille skill as opposed to not having 
it, how limited is your curricula, your academic reach?
    Ms. Kirchner. It is definitely preferable to have Braille, 
as I have stated, although I did use my biology book on tape 
last year, but I was not so dependent on the graphs and charts; 
we did not have to focus on them. If we did, I had my 
transcriber produce them in a format I could feel tactility, or 
I asked my teacher about them. But it is definitely preferable. 
The fact that I hear there is a growing trend in some areas of 
literacy or at least people being less willing to learn Braille 
as a medium of learning is quite disturbing, as I find Braille 
the most useful medium for educational purposes. If I have to 
order tape, I do it, but I always prefer to use Braille 
because, as I stated earlier, tapes are very impractical, and 
just finding the right one is a chore. So it is disturbing if 
people are less willing to learn Braille. It will always be 
extremely important, especially, as you have stated, for 
science and math courses.
    Senator Dodd. So if there are parents out there with a 
newborn child, your recommendation is when the appropriate time 
arrives, if at all possible, have that child learn the Braille?
    Ms. Kirchner. Definitely, if their degree of vision is 
sufficiently----
    Senator Dodd. Yes. I want to get back to some of the things 
we are going to do with this, but it occurs to me that one of 
the side benefits of this, if we agree with the point that 
Jessie has just made that, everything else being equal under 
the circumstances, we really should be encouraging the skill in 
Braille, that one of the benefits of this bill will be to 
promote the teaching and the learning of Braille and that that 
could have the effective, given your numbers, Marc--if my 
numbers are correct that 32 percent is the level of employment, 
and if we are talking about 85 percent with people who have 
Braille skills, it seems to me that one of the benefits of this 
will be to promote Braille as a technology or as a skill. Is 
that a fair assumption that I can make if this bill becomes 
law?
    Mr. Maurer. Very fair, Senator, and it will also promote 
employment and all kinds of independent opportunities for blind 
people because of the results of employment.
    Senator Dodd. Pat, I wonder if you could explain to us why 
the process takes so long. Barbara and Jessie have talked about 
when you have to make the request and so forth, but it might be 
helpful just as a practical matter--very few people understand 
the publishing business--to explain why it does take so long.
    Ms. Schroeder. Well, we have these things called 
``formats,'' and here we go through a journey of formats, but 
the 26 different States that ask for these, many of them ask 
for different electronic formats. So for the publisher, you are 
producing the book one way, but then you are required to do an 
electronic format, but then you may have to do it in several 
other different kinds of electronic formats for the others that 
are around.
    But probably none of these is as sophisticated as we would 
like. No one could do a better job than Barbara did explaining 
how time-intensive and labor-intensive it is to even take these 
formats and transfer them, and some are more sophisticated than 
others, as I understand--Barbara is nodding, so I hope I am not 
on the wrong format road----
    Senator Dodd. Please jump in, Barbara.
    Ms. Schroeder. But one of the good things about this, 
Senator, is that on a parallel track going at the very same 
time, in the year 2000, this collaborative national effort 
began with publishers and Braille experts and Braille software 
developers and everything else, trying to find a format that is 
going to expedite this process, I believe.
    Obviously, we cannot say if this bill passes that that 
would be the format that would be agreed upon, but the very 
good news is that a lot of spade work has been done trying to 
see if there is not a format that makes Barbara's task much 
easier and that makes everyone's task much easier--and I assume 
it is the software doing a lot more of the work that the 
individual now does, and that is why she is saying you could do 
the biology book in a much shorter period of time.
    Now, Barbara, did I translate that correct?
    Ms. McCarthy. You did a very good job. I do not need to say 
much more than that, but I think one thing to point out is the 
fact that this new software that publishers will be using is 
going to be something that we can use to produce many different 
formats. We have talked about that, and Braille is one of them. 
This is an amazing piece of technology if you think about it, 
and the development is well under way for this, but it is going 
to allow us to basically take from one source and be able to 
produce digital audio if that is what the student prefers or we 
need it for some particular reason, be able to produce hard-
copy Braille. We can also use the material electronically on a 
computer with a speech synthesizer--in other words, a screen 
reader--if the individual prefers to listen to the material on 
the computer; it is certainly a lot more compact that way. And 
then, last of all is the ability to be able to use a Braille 
note-taker or a Braille display, which is just an electronic 
Braille device. It would be no different from a sighted person 
using a computer, and you can just basically scroll through the 
text that way.
    So this is a very flexible technology that we are talking 
about, and in terms of why the reduced time, well, all of the 
text will be entered already, so all that I have to do is take 
the text, translate it, and I can do what I want with it.
    Senator Dodd. You anticipated my next question in a sense. 
What we have tried to do with our bill is to anticipate the 
tremendous changes that we cannot even imagine that will occur 
in the coming years. I read the other day that video stores 
will no longer sell the stuff--they are into the DVD. It drives 
me crazy. The wonderful days of having one piece of technology 
that you knew would work for the rest of your life are now 
gone. Now you go out to buy something, and the temptation is to 
wait a couple of years because something else is going to come 
out that will change all that.
    So the good news here is that what we are trying to 
create--and I think you have said it well--is the great 
flexibility and change through technology that can come that 
will be able to accommodate those kinds of opportunities that 
do not exist today. That is really the key thing, and that is 
very, very helpful.
    And that was my second question to you, Pat, as well, and 
you have covered that ground.
    Ms. Schroeder. Absolutely.
    Senator Dodd. Jessie, I am sitting here trying to imagine, 
knowing how well you are doing in class, but I am trying to 
envision myself how you were able to complete your assignments 
and study for exams without a textbook. Is there some secret I 
should have known? [Laughter.] How did you do that?
    Ms. Kirchner. Internet is definitely a Godsend. I have been 
fortunate to have had a textbook the majority of the time. 
Geometry freshman year, I was fortunate to have had a very 
understanding teacher who was able to get supplemental 
worksheets to my transcriber in sufficient time for me to do 
those book exercises, and then, if I still did not understand 
after not having read the lesson in the book, I would just ask 
my teacher for extra assistance after school. I actually did 
very well in the course.
    As far as history, for the couple times I did not have the 
required text, I would explain that to my teacher, and we would 
work things out, whether it would be taking the quiz a day 
later so that I could scan my 40 pages or so into the computer 
and read them aloud with my screen reader, or there are notes 
available for the particular textbook that I could use as well.
    I generally have not had problems overall and have been 
very luck in that. But I have known people who have had a very, 
very difficult time without a textbook.
    Senator Dodd. Again, you have been over some of this, but 
choosing one format over another and the type of technology 
necessary, can you give me some idea, Jessie, how you do choose 
one format over another? I know you prefer the Braille, but 
obviously, there are times when it is not available or there 
may actually be another format. Are there times when another 
format is actually preferable to you?
    Ms. Kirchner. As I mentioned, electronic format is 
ultimately the best in that besides having the Braille in front 
of you--Braille overall is preferable to tape just because you 
like to see the words in front of you, particularly if you have 
difficult vocabulary words that you do not know how to spell, 
you like to see those in front of you--and the electronic 
format with the Braille supersedes the hard copy, because you 
can go through it very fast. You have the capability that 
anyone has with any personal computer. You can scroll through 
and find different paragraphs, you can bookmark different 
chapters if you need to, you can quickly jump through pages 
upon pages. I have not had to order a hard copy of an English 
novel for I do not know how many months just because I have 
been fortunate to have been able to download a lot of them from 
the Web. So that has been great, because I can just put them on 
my note-taker, and she says ``Jump to Chapter 3,'' and I just 
do the global find command and type in ``Jump to Chapter 3,'' 
and it's great, especially for group work, when you have to go 
looking for quotations to support a certain theme. So 
generally, electronic format is the best, and it is really 
exciting that this bill is going to promote such a format as 
well as Braille, because those are the two primary formats that 
are preferable.
    Senator Dodd. That is very, very exciting.
    Ms. McCarthy. Could I just add one thing to what Jessie 
said with regard to how you select which format?
    Senator Dodd. Yes.
    Ms. McCarthy. One of the things that we know is that if you 
are learning a foreign language, you really have to have that 
in Braille. You can learn to speak a foreign language with the 
tape or electronically, but unless you can actually see the 
words, if you will, there is no way that you are going to 
become fluent in a foreign language. And we have already talked 
about the math. But that just brings up the importance of why 
the ability to have that hard copy for some things. And you 
were very astute, Senator Dodd, to mention that. There will 
always be a need for Braille.
    Senator Dodd. Now, Jessie, on the process that you 
presently go through, or the people like yourself in schools 
around the country, what is the present process that you go 
through to get a textbook so that you can read? What happens? 
You described that March is when you do it, but what is the 
process involved today? Is there are a central location like 
Virginia's Library and Resource Center, or how does it work?
    Ms. Kirchner. There are certain resources that you 
continually generally refer to when searching for a textbook. 
In terms of books, in terms of math textbooks, we have a 
similar agency in Connecticut that does that kind of thing. I 
have a State teacher for the visually-impaired with whom I work 
to make sure that I have the books I need, and she makes sure 
in March that--for instance, this year, we know that I am 
taking calculus, we hope I qualify for calculus, fortunately, I 
did, so we decide in March that I am going to quality for 
calculus and that I will need the book. Then, she goes to our 
equivalent of the resource center and asks if they have it 
available. In this case, they already did. We still had to pay 
a substantial sum just to buy the book, I think, or at least to 
borrow it. But in some cases like last year, the book actually 
had to be Brailled, and that would cost even more, and as I 
said, the volumes would start trickling in by September, and 
you would hope that you would get the right ones as you needed 
them.
    As far as other books that depend less heavily on symbols 
and diagrams, like English literature books, they are usually 
available on tape or from another library, and you just have to 
know which libraries to contact. Recording for the Blind is a 
big one, and the National Library Service for the Blind here in 
DC. is actually a primary resource for such books. So I have 
learned to use those resources primarily by myself.
    Senator Dodd. Do you ever contact the publisher directly?
    Ms. Kirchner. No, I have not had to do that just because I 
did not know they had any direct involvement with that kind of 
thing--but you will, apparently, through this legislation.
    Senator Dodd. Yes, Pat?
    Ms. Schroeder. If I might, Senator, one of the things that 
I think is confusing here is like when you heard that it took 
$2,000, that $2,000 is not paid to the publisher. the publisher 
creates the electronic file, and they create lots of different 
forms of electronic files depending on the State or the region 
and what they are requesting. But then, converting that file to 
Braille or whatever it is, either they do it with volunteers, 
as Barbara has explained, or you have to pay, or somehow, and 
that becomes a huge additional cost.
    So that is why this is so chaotic and spread out, and that 
is why this bill just makes a huge amount of sense, because the 
publishers will all create one form of electronic file, and 
hopefully it is going to be this new advanced technology they 
are all working on now, to try to put it together so it will be 
much cheaper, then, to produce and get the materials out.
    So the reason why you would probably not contact the 
publisher directly at the moment is that you would get the 
file, and then, what are you going to do with the file? You 
have got to convert it to the next format.
    Senator Dodd. OK.
    Mr. Maurer. Senator, Jessie mentioned a moment ago a note-
taker. This is one, this device here, and as you observe it, it 
has keys on it to let you get at the files in the device and 
also to move it around. It is called a ``Braille light,'' and 
this is a Braille display. It brings up the information which 
is stored in here. There are many megabytes of information that 
can be put into it; several books can be stored in this small--
it can be easily put into a briefcase and carried--and it makes 
the information available either auditorially or in Braille.
    Part of what this bill will do is provide a file which is 
formatted in such a way--not all of them will work with this--
that these note-takers--this is one version of it and a good 
version--can use the material from the textbook publishers and 
provide it into the hands of the students.
    Senator Dodd. That is incredible. Who makes that piece of 
equipment?
    Mr. Maurer. This one is produced by Freedom Scientific, 
which is a company out of Florida.
    Senator Dodd. Very good.
    Barbara, how much time again from the time the teacher 
changes the textbook is the present situation for your center 
before you can get something in Braille or electronic format?
    Ms. McCarthy. That really is dependent upon what time of 
year the material is ordered. If the material is being ordered 
now, and this is the end of June, for the beginning of the 
school year, which for many school systems is August, sometime 
in August--that is less than 2 months--we may be able to get a 
piece of the beginning of the book to the student. One thing 
that we keep talking about is the fact that the students are 
getting parts of the book. They are not getting the entire 
book. They are not getting Chapters 1 through 15 all at one 
time. They are trickling in as they are completed by the 
transcribers. But in reality, if you had one person sit down 
and do nothing else but transcribe Jessie's calculus book--no 
other books; that was their main job--I say, ``I am going to 
pay you to Braille this book until it is done; how long would 
that take?''--aside from the fact that that person would 
probably lose his or her mind, because it is very tedious to do 
this hour after hour, it probably could be done in 3 months 
from start to finish, and that is a real guesstimate, because 
we rarely do books that way.
    On the other hand, if, during the end of the first semester 
of the school year, a teacher orders a book for the second 
semester for the student, we have more transcribers available 
to us that time of year--they are finishing up some of the work 
that they have started--and we may be able to get somebody to 
transcribe something rather quickly at that time of year. It is 
really contingent on so many factors, and that is the big 
problem It is not really straightforward at all. It depends on 
when and what and who.
    Senator Dodd. And Murphy's law probably applies.
    Ms. McCarthy. And Murphy's law, absolutely.
    Senator Dodd. Anything that can go wrong will go wrong.
    Ms. McCarthy. No question.
    Senator Dodd. Well, this has been excellent testimony. I 
cannot thank all of you enough. I am going to leave the record 
open for a few days because we have staff here for other 
members who may have some additional questions that I did not 
think of to raise with you. So we will leave the record open to 
respond.
    I have a long list of organizations that I will not read, 
but suffice it to say there are about 25 or 30 here, various 
groups, various State and national organizations, who are 
supporting this legislation, and I think your testimony today 
is going to substantially enhance our opportunities.
    We are talking about a very small commitment financially 
that can make a huge difference, as I have heard you, not just 
today but for many, many years to come, where we can really 
break down some barriers and, as you properly said, Barbara, 
open some doors that need not remain closed, not in this day 
and age with the technology that is available.
    So I am going to be eternally grateful to all of you and 
very, very grateful for your work.
    And I cannot resist repeating again to you, Pat, and to the 
American Association of Publishers, that without your support, 
we really would not be able to do this. Everyone deserves 
support. Jessie, having listened to a bunch of adults talk 
about this is fine, but actually hearing from a student how it 
work, I cannot tell you what a difference you have made by 
being here today. You represent almost 100,000 students, and in 
fact, as I said earlier, everyone is a student now and will be, 
but you have done a great job of explaining the value of this 
particular effort and what a difference it can make. And I 
think all of us are deeply proud of the fact that even under 
the present system which is cumbersome, to put it mildly, how 
well you have done and what a source of pride you must be to 
your parents and teachers and others. So we commend you for 
your terrific work.
    Marc, you are always such a champion, and we thank you.
    Barbara, I am so impressed with what you have done in 
Virginia. How lucky the people of Virginia are to have you in 
their camp, fighting for them.
    So I am very grateful to all of you, and I just need you 
now to ring the bells of some of my colleagues around here. 
This is what I would call a slam-dunk. We can have huge 
arguments around here about matters that are very difficult to 
resolve--this is not one of them, or should not be. So I am 
very, very hopeful that in the coming days here on this 
committee, with Thad Cochran, who has been a great help and has 
been terrific on these kinds of issues--we have worked so 
closely on them over the years, along with the efforts to Tom 
Petri and George Miller in the House--that we will be able to 
get something done here before the calendar of the legislative 
year is completed.
    With that, I thank all of you for being here and look 
forward to your continuing involvement.
    This committee will stand adjourned until further call of 
the chair.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                Prepared Statement of Patricia Schroeder
    Mr. Chairman and Members of the Subcommittee, I want to thank you 
for inviting me to appear here today on behalf of the Association of 
American Publishers (``AAP'') to discuss S.2246, the proposed 
``Instructional Materials Accessibility Act of 2002'' (``IMAA''), and 
to briefly explain the perspective of book publishers regarding the 
issue of ensuring that elementary and secondary school students who are 
blind or have other print disabilities get timely access to 
instructional materials in the specialized formats they need.
    AAP is the national trade association for the U.S. book and journal 
publishing industry, representing some 300 commercial and nonprofit 
companies and organizations that publish literary works in virtually 
every area of human interest. Most of the major book publishers in the 
U.S. are AAP members. including the Nation's leading educational 
publishers, who produce textbooks and other instructional materials for 
all grade levels.
                 publishers support passage of the imaa
    Imagine that, at the beginning of the school year, each student in 
the class except your child has received their textbooks. Further 
imagine that your child won't receive his or her textbooks for two, 
four, or even six months after everyone else, or quite possibly won't 
receive them at all.
    This is the reality that thousands of blind or print-disabled 
students must deal with every year, as they are forced to wait for 
copies of the textbooks in Braille or in other specialized formats that 
these students are able to use.
    But the IMAA is intended to make sure that blind or print-disabled 
students receive their textbooks in timely fashion, including those who 
need them in specialized formats suitable for users who are blind or 
have other print disabilities. AAP applauds Senators Dodd and Cochran 
for their leadership in introducing this legislation.
    The IMAA would significantly improve access for blind students, and 
other students with print disabilities. to print instructional 
materials used in elementary and secondary schools. by creating a 
coordinated and efficient system for acquiring and distributing such 
materials in the form of electronic files suitable for timely 
conversion into a variety of specialized formats.
    Converting print textbooks into Braille and other specialized 
formats is a complex process that sometimes takes months to complete. 
Depending on the length and complexity of the textbook, it can take a 
publisher as long as three months to produce an electronic file of the 
instructional material suitable for conversion into specialized 
formats. It can take another four to nine months for those engaged in 
the conversion process to convert those files to Braille or other 
specialized formats, proof the work, and then produce it in the final 
form used by students. One of the biggest benefits of the IMAA will be 
the establishment of a system that hopefully will speed up the process 
of converting textbooks into specialized formats, so that blind or 
print-disabled students receive their textbooks at the same time as 
their sighted classmates.

    AAP SUPPORTS CREATION OF A NATIONAL ELECTRONIC FILE FORMAT FOR 
                        INSTRUCTIONAL MATERIALS

    Currently, twenty-six states have laws requiring publishers to 
provide state or local education agencies with electronic files 
suitable for converting print instructional materials into Braille 
versions. Depending upon which states use a particular textbook and 
what requirements each state has enacted, publishers may be required to 
produce a conversion file in as many as six different file formats 
(i.e., HTML, SGML, ICADD22, Microsoft Word, RTF and ASCII), with ASCII 
being the one most commonly-required.
    Unfortunately, the file formats actually used by publishers to 
produce textbooks and other print instructional materials are far more 
complex than any of the state required formats and generally unsuitable 
for use in conversion to specialized formats. This means that 
publishers must track and comply with diverse state laws, and go 
through an expensive, time-consuming process to convert their 
publishing files into formats that are of no use to their publishing 
operations. ``Worse yet, the state-required formats--especially ASCII--
are not even well-suited for efficient specialized-format conversion 
and typically require Braille transcribers to spend many hours manually 
``tagging'' or re-formatting the publisher-provided files before they 
can be used with conversion software. As a result, publishers spend a 
substantial amount of time and money to comply with the state 
requirements, but the resulting Braille textbooks often don't arrive 
for timely use by the blind or print-disabled student.
    The proposed rulemaking under IMAA for producing a ``national 
electronic file format'' for use in the conversion process is not 
intended to lock-in any particular technology product, but instead is 
expected to result in the adoption of an XML-based format of the kind 
that publishers are evolving toward with their nascent ``ebook'' 
products and that the Library of Congress is already developing for the 
next generation of digital talking books. The purpose of the rulemaking 
is to eventually make it easier for everyone--State and local education 
agencies, publishers, Braille software developers, and Braille 
transcribers--to work with the conversion file by facilitating a 
transition process toward an optimal format for everyone involved in 
its use.
    A file format that is more highly structured than ASCII will 
require far less manual intervention to convert to specialized formats. 
Publishers won't have to convert their materials to several different 
file formats and Braille software developers won't need to spend 
countless hours manipulating many different types of files. Braille 
specialists will then have the time to use their unique expertise in 
formatting and proofing files, so that high-quality Braille will be the 
end result. Students will benefit because the national file format will 
eliminate needless steps in scanning and reformatting files and the 
student will receive his, her book faster.
    Efforts are well underway to develop an optimal file format for use 
with assistive technology. In 2000, a collaborative national effort, 
the Joint Technology Task Force (``JTTF'') was created. Consisting of 
publishers. Braille experts. Braille software developers and other 
technology experts in the visually-impaired community, the purpose of 
the JTTF is to facilitate the testing and use of technologies for 
converting publisher's electronic files to the optimal format and the 
utilization of those files so that students will receive textbooks at 
the same time as their sighted peers. It is believed the optimal format 
will be the ANSI/NISO Z39.86-2002 standard Specifications for the 
Digital Talking Book. This standard was ratified by the National 
Information Standards Organization (NISO) and approved by the American 
National Standards Institute (ANSI) on March 6, 2002. Two of the JTTF's 
main goals are to analyze the ANSI NISO file format to determine its 
suitability for converting textbook content into Braille and other 
specialized formats, and to promote and demonstrate to producers of 
accessible books the efficiency and benefits of using publisher files 
in the ANSI, NISO format.

 AAP SUPPORTS ESTABLISHING A NATIONAL REPOSITORY FOR ELECTRONIC FILES 
                           USED IN CONVERSION

    The current system of providing the electronic files to twenty-six 
states with diverse file format and other legal requirements is an 
expensive and cumbersome process for publishers. Publishers put a great 
deal of time, effort, and money into developing the necessary business 
plans to make the intermediary publishing file available in the format 
a state requires. For some smaller publishers, the costs and burdens 
entailed in this process may, as a practical matter, prohibit them from 
competing for textbook adoption in some markets. Having a ``one-stop'' 
national repository to which they would submit the files for 
availability to any state or local education agency that requires them 
would greatly ease the compliance burden for publishers, eliminate 
substantial duplication of effort, and result in more students having 
quicker access to instructional materials in the specialized formats 
they need.
    The IMAA would provide for the establishment of a National 
Instructional Materials Access Center to serve as a ``one-stop'' 
central repository for the publisher-provided electronic files in order 
to make the files more efficiently available to those responsible for 
using them to convert print instructional materials into Braille and 
other specialized formats. The Access Center would not directly engage 
in the conversion process. but would be responsible for coordinating 
the acquisition and distribution of electronic files of core 
instructional materials for conversion. The Access Center would also 
develop and administer procedures for ensuring the technical quality of 
the submitted files and securely maintaining them.

 AAP SUPPORTS STATEWIDE PLANS AND CAPACITY GRANTS TO ENSURE THAT BLIND 
   OR PRINT-DISABLED STUDENTS OBTAIN TIMELY ACCESS TO INSTRUCTIONAL 
                    MATERIALS IN SPECIALIZED FORMATS

    Blind and print disabled students live in every state, not just in 
the twenty-six states with Braille laws. Even with a state law, 
publishers understand that some states don't have the funds to provide 
materials in specialized formats for their students. That is why 
capacity-building grants would be provided under the IMMA. These grants 
would be used to help states facilitate the timely conversion of 
publisher-provided electronic files into Braille or other specialized 
formats, upgrade conversion-related software and hardware, and obtain 
training for those engaged in the conversion process.

                               CONCLUSION

    Publishers and representatives from national blind advocacy 
organizations have been working over a period of several years to 
develop a mutually agreeable and practical solution to the problem of 
blind students receiving their textbooks on time. and we all strongly 
support the IMAA. Providing a ``level playing field'' for blind and 
print-disabled students by giving them access to instructional 
materials will open up many new opportunities for those individuals.

                 Prepared Statement of Jessie Kirchner

    Mr. Chairman and other Members of the Committee: My name is Jessie 
Kirchner, and I live at 45 Dromara Road in Guilford, Connecticut. This 
fall, I will be entering my senior year at Guilford High School. I am a 
Braille reader and am speaking in support of S.2246, the Instructional 
Materials Accessibility Act: Making Instructional Materials Available 
to All Students.
    First, let me thank you for the opportunity and the privilege to 
speak to you today about such important legislation. In addition, I 
want to especially thank my senator, Senator Dodd, for introducing this 
bill and for his commitment to moving it forward. Hopefully, I can give 
you an idea of how the current system works from a student's 
perspective, so that you can understand what a positive impact this 
bill will have on visually impaired students across the country.
    Since the Instructional Materials Accessibility Act was introduced 
in April of this year, I have thought a lot about how this bill will 
improve the situation for blind and visually impaired students. I have 
spoken to many students about this bill, and will attend the National 
Federation of the Blind Convention in early July, where I expect to 
speak with many more. Because I will graduate high school before the 
provisions of this bill take effect, it will not directly benefit me. 
Nevertheless, on behalf of blind students who follow me, I strongly 
urge passage of the Instructional Materials Accessibility Act this 
year.
    Equal access to education for all students requires equal access to 
textbooks. Unfortunately, many blind and visually impaired students sit 
in classrooms without books, while their sighted peers, books in hand, 
are able to follow along with the daily lesson. Even with the best 
planning, Braille textbooks frequently do not arrive when needed, if at 
all.
    Braille books required for the school year beginning in September 
must be ordered by March of the previous school year. Thus, planning 
begins in February, when we must determine which courses we expect to 
take. Next, a list of required textbooks is requested from next year's 
teachers. We determine which books are not already available in Braille 
or on tape, and order them in Braille. A single Braille textbook may 
consist of over 30 volumes and may take months to produce. Ordering 
books in March should allow volumes to start arriving by the beginning 
of the next school year.
    The process sounds simple, but in reality it is not! First, course 
descriptions for the next school year are not normally available until 
after March, and course scheduling is done even later. We must start 
the process ahead of everyone else, and may find out after ordering our 
books that we have schedule conflicts. For instance, this year I will 
be unable to take Wind Ensemble because another course I would like to 
take, Western Civilization, is being offered during the same period. 
Adding Physics in place of Wind Ensemble may mean not getting a physics 
textbook in time.
    Sometimes the schedule conflict requires completing a course during 
the first semester in a double period rather than over the entire year 
in a single period. This happened to me freshman year. My geometry book 
was typed in Braille and volumes sent as they were completed. However, 
they continually arrived too late, as the typist could not keep up with 
the class pace!
    Secondly, some courses are available to students only if they 
qualify for them on the basis of a sufficiently high grade in the 
prerequisite course. For example, I took pre-calculus this past year 
and needed a minimum of a B average to take calculus next year. 
However, I could not wait for my final grade before having to order my 
calculus book in March, at a cost of $2,000. If I do not take calculus, 
my school will have spent $2,000 for nothing, and I still will not have 
a math textbook to use in September!
    Thirdly, town budgets are passed (at least in our town) in June. If 
requests for new textbooks are approved, the books are purchased over 
the summer and arrive by September-all except the Braille versions. I 
know someone personally who experienced this. By September, he had a 
math book in Braille, but it was the wrong one. The new one had been 
quickly ordered but could not be produced in time. The volumes kept 
arriving after the material had already been covered. The student's 
grades and self-esteem suffered greatly. Sadly, he felt like he was the 
problem since no one else in class was complaining.
    Fourthly, some Braille textbooks are not available in time because 
there are only a limited number of competent Braille typists. Braille 
typists must know the various Braille codes. For example, math is typed 
in Nemeth code, standard English in literal code, and science text in 
scientific code. If a good typist gets an order for three books at 
once, he or she might not be able to finish them all on schedule.
    Fifthly, books on tape are wonderful, but in general, textbooks in 
Braille are preferable. Textbooks are ordered on tape if they are 
available when a Braille copy is not. However, turning to the same page 
the teacher is on in class is impractical with tapes. Going back and 
looking up quotes and other facts is difficult. In addition, tapes can 
be defective. This happened to me this past year. By the time I 
discovered that two tapes of my history book were blank, it was too 
late to order new ones. The homework had to be done. Each night I 
scanned pages from a printed copy into my computer before I could start 
my homework. My sighted peers probably had much of their homework done 
in the time it took me just to scan the text!
    Lastly, without a textbook in class, we often have to rely on 
friends, an aide, or parents to read materials to us when we are very 
capable of reading them ourselves. We don't like to take our friends' 
time, because they have their own work to do!
    Passing this bill will solve the problems I have discussed and make 
Braille textbooks available at the same time as printed textbooks are 
available for my sighted peers. Furthermore the fact that books will be 
available electronically will allow the option of downloading them into 
a Braille word processor or laptop computer. Although Braille hard 
copies of textbooks are preferable to tapes, they are bulky and 
difficult to carry. The new electronic format will give students the 
choice of obtaining their Braille textbook as a hard copy or reading it 
in Braille from a Braille word processor. The latter facilitates 
portability and allows us to access information more quickly and 
easily. Overall, our attention and time will be more appropriately 
focused on learning rather than on getting the information. Significant 
time will be saved and much stress will be eliminated from our already 
busy daily schedules.
    Again, thank you Senator Dodd for your leadership with this 
critical legislation, and thank you Mr. Chairman for calling this 
hearing. Having a textbook in class like everyone else should be a 
right, not a privilege. To move us closer to this point, passage of the 
Instructional Materials Accessibility Act is essential.

                   Prepared Statement of Marc Maurer

    Mr. Chairman. I am Dr. Marc Maurer, President of the National 
Federation of the Blind. My address is 1800 Johnson Street. Baltimore 
Maryland, 21230. Thank you Mr. Chairman for calling this hearing. It is 
a privilege to appear before the Senate Committee on Health, Education, 
Labor, and Pensions to discuss an issue of such paramount importance 
for the blind as the timely availability of books in school. I urge 
Congress to pass the Instructional Materials Accessibility Act. S.2246, 
this year and I would like to tell you why this should be done.
    The National Federation of the Blind (NFB) is the largest 
organization of blind people in the world. We have more than fifty 
thousand members composing approximately six hundred chapters in every 
state, the District of Columbia; and Puerto Rico. Like myself, all of 
our leaders and the vast majority of our members are blind.
    As we say in our monthly publication, The Braille Monitor, the NFB 
is not an organization speaking for the blind, it is the blind speaking 
for themselves. This best describes the purpose of the Federation, 
serving as the voice of the nation's blind. When we do this, as in the 
present case, the positions we take are reached through discussion, 
debate, and votes by our members and leaders across the country.
    Today we have come to discuss the Instructional Materials 
Accessibility Act, S.2246. This bill will provide books to blind 
elementary and high school students in America's schools at the same 
time the print editions are provided to sighted students, and in 
formats, including Braille, that our blind children require to succeed. 
Today, it is often the case that blind students receive their books far 
too late in the school year, or receive the portions they need after 
the need for them has passed. School districts often find it difficult 
to know where to turn in order to get a book converted to Braille. 
Converting printed instructional materials into ``specialized formats'' 
such as Braille is often time-consuming, labor-intensive, and costly, 
taking six or more months and several thousand dollars to complete.
    In the mid-nineteenth century, states established centralized 
schools for the blind to educate blind and visually impaired students. 
To support this, Congress authorized the American Printing House for 
the Blind (APH) in Louisville, Kentucky, to produce educational 
materials in alternative formats, including Braille. Today AHP 
continues to fulfill this function, receiving annual appropriations for 
this purpose.
    In the 1960's blind children first began to attend schools in their 
home communities in significant numbers, and today the vast majority do 
so. As a result. Braille, audio, and large print books must be obtained 
or created by any local school district having one or more blind 
children.
    The Americans with Disabilities Act, the Individuals with 
Disabilities Education Act, and other federal laws clearly establish 
the policy that individuals with disabilities are entitled to equal 
treatment in all areas of society. However, the successful 
implementation of these laws cannot occur without clear, specific, and 
practical standards and systems in place to anticipate accessibility 
needs. Currently, there are no federal laws that create standards to 
facilitate the production of textbooks in Braille.
    Approximately half of the states have responded to this need by 
requiring publishers to provide electronic copies of print editions of 
textbooks. However, there is no consistent file format used among the 
states, and the electronic copies provided by publishers are frequently 
not usable for
    Braille reproduction at all. Therefore, inconsistent and often 
conflicting state requirements place burdensome obligations on 
publishers without efficiently facilitating more timely production of 
books in accessible formats. An agreed-upon, uniform electronic file 
format would reduce the burden to publishers and significantly reduce 
the cost of creating the books. while helping to provide materials to 
blind students at the same time they are provided to others.
    This brings me to the bill before you today which we see as an 
important solution to the problems just described. The purpose of the 
Instructional Materials Accessibility Act is to improve the access of 
blind elementary and high school students to printed textbooks. This 
will be achieved by creating a coordinated, efficient system for the 
distribution of electronic files suitable for conversion to many 
formats, including Braille.
    The principal benefit of this legislation will be a uniform 
electronic file format. The process to develop this format is set forth 
in section 3 of the bill. A uniform format will allow rapid creation of 
textbooks for each student, sighted or blind. For students who read 
Braille, their books can be presented through the use of synthetic 
speech or stored and read with small computers, which display Braille 
dots.
    Without this legislation, local school districts will continue to 
bear the burden and cost of converting printed books into Braille. 
However, modern technology can now support shifting much of this 
responsibility to publishers without placing an undue burden on them. 
This legislation does not remove the school's responsibility to provide 
materials but will institute a shared burden between the schools that 
teach the children and the publishers that create the books. This will 
be the effect of having a uniform electronic file format and national 
distribution center. Provisions describing the Center are set forth in 
section 5 of the bill.
    This shared obligation between school and publisher has been 
carefully crafted with publishers fully engaged in the effort to create 
it. Concerning the process, Mr. Chairman, we started to develop the 
bill now before you over two years ago. All affected groups, including 
the Association of American Publishers, personnel from state education 
agencies, producers of Braille and audio textbooks, and representatives 
of the blind, including parents and students, were at the table to 
discuss and negotiate every sentence. This effort involved pain-staking 
deliberations and an uncounted number of drafts, spanning a period of 
15 months.
    Then, on June 27, 2001, the consensus now expressed in S.2246. 
introduced by Senator Dodd, was reached. The real breakthrough here is 
that publishers have agreed to prepare an electronic version of each 
textbook sold to any school district anywhere in the United States and 
to make this text available to all other school districts through a 
national distribution center.
    The text will be prepared by the publisher at no expense to schools 
or government agencies, The Association of American Publishers and its 
president, former Congresswoman Pat Schroeder, deserve high praise for 
reaching this historic agreement on behalf of their members. Through 
their efforts each blind child in America will have a better chance to 
receive an education of high quality.
    Concerning cost, Mr. Chairman, operation of the national 
distribution center will be a continuing federal expense. Experts who 
know about book production for the blind have estimated the annual cost 
to be approximately $1 million. The other cost, authorized in the bill 
at $5 million for the first year and such sums thereafter, will be for 
technical assistance grants for state and local education agencies. 
These funds are needed to help them ramp-up and learn how to use the 
new electronic files with maximum efficiency.
    To sum up, Mr. Chairman, S.2246 gives the Congress a unique 
opportunity to improve educational services for blind children. Senator 
Dodd's leadership and personal interest in sponsoring and moving this 
bill forward are particularly important to its progress. On behalf of 
all blind people in America. I thank you.

               Prepared Statement of Barbara N. McCarthy

    Mr. Chairman, Members of the Committee, and staff; Thank you for 
inviting me to speak to you today. What I am about to tell you, and the 
purpose of this legislation, have not been a Senate priority; there are 
great economic and international issues before you. What I am going to 
tell you about, however, is the priority within the community of blind 
and visually impaired people, and the professionals who work with them. 
Technology has opened many opportunities to provide all of us with 
access to information. This is a matter of allowing technology to 
provide access to information. Technology offers the potential to 
provide the materials that all students, including those who are blind 
and visually impaired, must have in order to receive an equal and 
quality education. Ultimately, technology will allow for lower 
materials costs, faster delivery, and better student performance.
    If I could have called this hearing--I would have invited you to 
Richmond, to see what we do at the Library and Resource Center this 
time of year. In fact, today, if you were to visit any one of the 
materials centers that are located in forty-five (45) states, you would 
see similar activity. At the Library and Resource Center in Richmond, 
we provide Braille and large print textbooks to all Virginia students 
who are blind and visually impaired, about 550 students. We loan 
textbooks for the school year. At the end of every academic year, the 
books are returned--and made available to be loaned to another student 
for the next school year. This time of the year we are busy producing 
braille and large print textbooks for the next school year. Most books 
have already been ordered, and will likely be ready when school begins. 
However, last week I received orders for 5 books to be produced in 
Braille: 2 Algebra, a calculus, a geometry, and a biology book. June is 
late in the process to receive orders for Braille books. I was able to 
find people to produce the math books, but the books will not be ready 
when school starts. I have not been able to locate someone who can 
produce this biology book. But regardless of when I received the book 
order, there is a student who needs the book in Braille, and will 
suffer without it when school starts.
    Orders for textbooks for the next school year should be received no 
later than April 30. Any order received after that is at risk for not 
being ready when school begins. When the order is received, we search 
our own database, to see if we have either produced the book ourselves, 
or purchased the book from another transcribing agency. If we have not 
produced the book, and it is an order for large print, we ask for a 
copy of the book from the school system, and enlarge it using copy 
machines.
    If the order is for a Braille textbook, we search the American 
Printing House for the Blind's national Louis database, for the title. 
If it is not available from another source, we will transcribe the book 
using our staff, ask one of our volunteers to transcribe the book, or 
pay someone to transcribe the book. A book the size of the biology text 
I have with me today will take approximately 9 months to transcribe. 
Most transcribers work on several books at one time--and regularly 
provide volumes of Braille to stay ahead of the class syllabus. A book 
this size--1,183 pages--would translate into 4,732 pages in braille. 
The average cost to produce this into Braille book would be: $16,562.
    This national practice for producing books in alternative format 
that I have described is a process that requires everyone in the chain 
to do their part, on time, and accurately. One break in the chain, and 
the books will be late for the beginning of school. The process for 
providing textbooks in adapted format is dependent upon many factors, 
which determine if students receives books on time. Some of those 
factors are:
    If students are assigned subject areas and classes for the next 
school year, prior to May
    If the school has identified next year's textbooks
    If the school can provide copies of the textbooks for us to use in 
production
    If the book orders are placed by April 30
    If there are transcribers available to produce the book in Braille
    If students' schedules don't change when school begins
    If students don't move into a different school system unexpectedly
    The process that is promoted within the scope of this legislation 
is very different from the one we currently use. It requires far less 
time, costs less, and will ensure that blind students will receive 
their textbooks at the same time as other students. As soon as an order 
is received for the book, we would search our database. If we don't 
have it, we would check the national database, that this legislation 
creates, to see if the file is listed as available. If it is, we will 
download the file, print the book in large print or translate the data 
using braille software, and provide the book in the student's chosen 
format (visual electronic, large print, digital audio, or for use with 
an electronic braille display). If the book isn't available, we will 
request the electronic file from the publisher, to be deposited in the 
center. Once deposited, we will download the file. The cost for my 
Resource Center to produce this biology book in Braille, using this 
proposed process, would be approximately $785, and it could easily be 
produced within a week.
    If this legislation is passed, three (3) years from now I will not 
struggle to find a means by which this biology textbook is put into 
Braille. When the student moves to Fairfax from Newport News in the 
middle of the school year, or when the student is doing so well that 
she chances classes first semester into an honors class, the books can 
be available.
    On behalf of the members of the Association of Instructional 
Resource Centers for the Visually Impaired--representing every state in 
the country, we believe that this legislation offers the single 
greatest contribution to blind and visually impaired children's 
futures. It will ensure they really do receive the same education as 
their sighted peers. Access to information opens doors. This 
legislation is a door opener. Children's lives will be changed.

    [Whereupon, at 11:15 a.m., the committee was adjourned.]


</pre></body></html>
